                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 112100074                                                                       Page 1 of 1




                 An investigation was opened on a company1 with an SBIR award2 pursuant to a proactive
                  3                                                                4
         review . It was discovered that the company had a concurrent SBIR award with a different
         federal agency5 that contained potentially overlapping work. 6 A review ofboth awards was
         conducted by a scientific expert7 and it was determined that no overlapping work exists. 8

                 The allegations were not substantiated. This investigative case is closed with no further
         action taken.




NSF OIG Form 2 (11102)
